In the Supreme Court of the United States
NO:
TAMMY NOERGAARD,
Petitioner,
vs.
CHRISTIAN NOERGAARD,
Respondent.

CERTIFICATE OF COMPLIANCE WITH
RULE 33.1(h)

I, Tammy Noergaard, the Petitioner, hereby
certify that, according to the word-count tool in
Microsoft Word, the Petition for a Writ of
Certiorari consists of 8,986 words, excluding the
sections enumerated by Rule 33. 1. The Petition
for a Writ of Certiorari therefore complies with
Rule 33.1.
Respectfully Submitted,

Tammy Noergaard
Petitioner , In Propria Persona
1361 Spectrum
Irvine, CA 92618
(949)842-5942
tammynoergaard@yahoo.com

Dated: 3/31/2021

